May 28, 2021
Electronically Filed
Scott S. Harris
Clerk of Court
Supreme Court of the United States
One First Street NE
Washington, DC 20543
Re:

Sportswear, Inc. v. The Savannah College of Art and Design, Inc.,
Case No. 20-1391

Dear Mr. Harris:
On behalf of Respondent The Savannah College of Art and Design, Inc. in the abovecaptioned case, I hereby request under Rule 30.4 of the Rules of this Court an extension of time
to an including July 12, 2021 within which to file a brief in opposition to certiorari in this case.
The petition for a writ of certiorari was filed on March 31, 2021. Respondent’s brief in
opposition is currently due on June 11, 2021.
The extension is respectfully requested because of counsel’s other professional
commitments.
Thank you in advance for your attention to this matter, and please do not hesitate to
contact me should you need additional information.
Sincerely,

W. Andrew Pequignot
MOORE PEQUIGNOT LLC
Cc:

Adam G. Unikowsky, Esq.
Counsel of Record for Petitioner

